r

J!

No. Case: 19-406

t

In the
SUPREME COURT OF THE UNITED STATES
TOUMA,
Petitioner,

marilu

f:

I

!
VS.

THE GENERAL COUNSEL OF THE REGENT AND
ET AL, Respondents,
On Petition for Certiorari to the United States
Court of Appeals for the Ninth Circuit,
San Francisco, California, No. 18-55996
The Southern District Court,
Santa Ana, California. No. 8:17-cv-01132-VBF-KS
The Central District Court,
Los Angeles, California. No. 8:17-cv-01132-VBF-KS

t
PETITION FOR REHEARING
MARILU TOUMA
Plaintiff, Appellant and
Petitioner
4439 Murietta Avenue #20
Sherman Oaks, CA 91423
mtoume2017@aol .com
Pro Se

t
1

January 1, 2020

v

!

1.

ARGUMENT PRESENTED
1.

Whether the Southern District Court, the Central

District Court and the Court of appeal ERRED when they
ruled against petitioner and in favor of all the defendants and
concluded the case to be frivolous; when evidence demonstrate
UCLA et. al. violated petitioner’s First Amendment
Retaliation under ADA among other violations; when UCLA
et. al. accused petitioner of being “uncooperative,
noncompliance and physical aggressive”; “assault to a nurse”
(oral deposition) among other disgusted and unfounded
accusations after petitioner engaged in a protective speech:
put stop to an adverse behavior and informed UCLA et al; she
was going to make a complaint; and if those ERRS amount for
petitioner’s deprivation of civil rights, violation of the America
Disability Act; Title II ADA; criminal charges and for any
other charges this Honorable court determines necessary and
appropriate....?

ii.

TABLE OF CONTENTS
TABLE OF CONTENTS

11

TABLE OF AUTHORITIES

11

PETITION FOR REHEARING

1

GROUNDS FOR GRANTING PETITION FOR
REHEARING.......................................................

1

I.

SUPPLEMENT BRIF WAS REJECTED BY
THE COURT

II.

2

NEW CASE: HOUSE OF REPRESENTATIVE
DENIED PRESIDENT TRUMP “DUE
PROCESS”

III.

7

COURT OF APPEALS; SOUTHERN COURT AND
CENTRAL DISTRICT COURT
(1) ABUSED OF POWER

7

9

(2) OBSTRUCTED JUSTICE AND

10

(3) ACTED IN BAD FAITH

10

IV.

“UNLIKEABLE” LITIGANT

10

V.

CONCLUSION

11

111.

TABLE OF AUTHORITIES
CASES
Adams v. Lawson,
58 Va. (17 Gratt.) 250, 255-56 (1867);
Estenfelder v. Gates Corp.,
199 F.R.D. 351, 354 (D. Colo. 2001)
Hyland v. Raytheon Tech. Servs. Co.,
277 Va. 40, 46 (2009).
Moseley v. Moss, 47 Va. (6 Gratt.)
534, 538 (1850)”.
CONSTITUTIONAL AMENDMENTS
FIRST AMENDMENT RETALIATION UNDER ADA,
TITLE II. Defamation of character.
FOURTH AMENDMENT: Invasion of privacy.
FOURTEENTH AMENDMENT: Equal Protection
Clause.
U. S. CODE
TITLE 42. THE PUBLIC HEALTH AND WELFARE.
U.S. CODE 12203 Prohibition Against Retaliation and
Coercion.

IV.

CALIFORNIA LAW
PATIENT BILL OF RIGHT. Title 22, California Code of
Regulations Section 72527.
VICTIM’S BILL OF RIGHTS: MARSYS LAW.

/

1
PETITION FOR REHEARING
Pursuant to this court’s rules 44.2, Petitioner, Marilu
Touma, petition for a rehearing of the Court’s order denying
writ of certiorari in this case. Petitioner further request the
court to process her Supplement Brief and/or allow her to
present this vital information properly; which was vital for
the outcome of this case. Furthermore, petitioner request the
court to treat this rehearing as a Conference Meeting; since
petitioner’s oral deposition Rule 30(b)(6) taken by UCLA and
other vital information included in the Supplement Brief was
intended to be review by the nine justices before the
Conference Meeting; instead the court rejected it and
petitioner did not have the opportunity to fix/amend the
problem before the Conference Meeting that was scheduled on
December 6, 2019.
GROUNDS FOR REHEARING
Petitions for rehearing of an order denying certiorari are
granted: (1) if a petition can demonstrate “intervening

2

circumstances of a substantial or controlling effect”; or (2) if a
petitioner raises “other substantial grounds not previously
presented.” R. 44.2. Petitioner shows as follow:
I. PETITIONER’ SUPPLEMENT BRIEF WAS
REJECTED BY THE COURT.
On November 21, 2019 Petitioner sent to the court her
Supplement Brief (Vo. I and Vol. II) and the court rejected
it. Pursuant Rule 15.8 of the U.S. Supreme court
“Any party may file a supplemental brief at any time
while a petition for a writ of certiorari is pending,
calling attention to new cases, new legislation or other
intervening matter not available at the time of the
party’s last filing. A supplemental brief shall be
restricted to new matter...”
“...other intervening matter not available at the time of
the party’s last filing...new matter” was interpreted by
petitioner as alerting the court of “New information /
evidence” that was not available to her at the time she filed
her petition for writ of certiorari on July 22, 2019. On
December 16, 2019 petitioner was told the Supplement Brief
(Vol. I and Vol. II) was not processed• and the

3

information not included during the Conference Meeting
(December 6, 2019). Court stated the supplement brief did
not comply with Rule 15.8; but did not indicate the error.
Petitioner is not an attorney; any error was an honest
mistake. Petitioner did not have the opportunity to amend/fix
the Error and properly present the information:
Threats she is being receiving of the release of
petitioner’s intimate video, photos, etc. (to any social
Media: Movie, Tv, Radio, Internet, etc.)
Copy of Petitioner’s ORAL DEPOSTITION taken by
UCLA where UCLA accused petitioner of being:
“...Melissa iriade a note where she describes you
as uncooperative and noncompliant and
physically aggressive...” . A criminal accusation
that petitioner assault a nurse. Further,
testimony that petitioner did not request to be an
any study; was getting expired and the wrong
doses of medications; was denied.medical
treatment of her choice... among other unfounded
accusations /insinuations.
Copies of letters/receipts showing that Petitioner has
requested the help from Local Police, District Court,
Attorney General, Department of Justice (Civil
Rights Unit and Disability Unit), FBI, etc. And No
action has been taken. Petitioner is being followed;
harassed; spy on (computer/phone); among other

4
invasion of her privacy... all the time..by Police,
security guards, investigators, etc.
Pursuant Rule 30.4 provides that a party aggrieved by the
Clerk’s actions may request that the motion be submitted to a
Justice or to the Court. On December 24, 2019 petitioner sent
an application to the Circuit Justice and to the Court
requesting the process and/or allowing her to amend/ fix the
Supplement Brief (Vol. I and Vol. II). Action pending.
For the last past years; petitioner has lived with this
STIGMA; that started
“On June 23, 2013 when Petitioner went to UCLA ER
because she was feeling Chest pain: Shortness
of breath. Numbness in the face. Headache,
Stomach pain among other symptoms. UCLA
did not help petitioner; instead; accused her of being
uncooperative, noncompliant;
physically aggressive” among other
unfounded insinuations...assault to a nurse..
(Review UCLA ER Surveillance cameras for June 23,
24 2013)”
and for the FAILURE to follow its own protocol
about SAFETY and SECURITY. (UCLA Patient and family
Handbook)

5
Make sure that you know who is in charge of your care.
Make sure your healthcare professional knows who you
are.
Speak up if you have questions or concerns.
If you have a test taken, don’t assume that no news is
good news.
When surgery is involved, be informed.
Get an advocate...
Unfounded defamations that petitioner has denied during the
oral deposition taken by UCLA et. al., on June 7, 2016 and
June 8, 2016.
Rule 30. Oral Depositions may be used in lieu of
testimony at trial, to impeach a witness, to refresh his
recollection..See generally Fed. R. Civ. P. 32,56(c)(2)
and (e); Estenfelder v. Gates Corp., 199 F.R.D. 351, 354
(D. Colo. 2001);
Rule 32. (a) (5) (8) Deposition Taken in an Earlier
Action. A deposition lawfully taken and, if required,
filed in any federal- or state-court action may be used
in a later action involving the same subject matter
between the same parties, or their representatives or
successors in interest, to the same extent as if taken in
the later action. A deposition previously taken may also
be used as allowed by the Federal Rules of Evidence.
For the last past years, UCLA et. has used its POWER,
MONEY AND INFLUENCE to destroy petitioner’s reputation
to deter her from proceeding with her case.

6

“Generally, under our common law, a private
individual asserting a claim of defamation
first must show that a defendant has published a false
factual statement that concerns and harms
the plaintiff or the plaintiffs reputation.” Hyland v.
Raytheon Tech. Servs. Co., 277 Va. 40, 46
(2009) (emphasis added).
Additionally, for a statement to be actionable as
defamation, it must have “the requisite
defamatory ‘sting’ to one’s reputation,” which is the
second prong of the threshold to be established as a
matter of law. Schaecher, 290 Va. at 92.
“Characterizing the level of harm to one’s reputation
required for defamatory ‘sting,’ we have stated that
defamatory language ‘tends to injure one’s reputation
in the common estimation of mankind, to
throw contumely, shame, or disgrace upon him, or
which tends to hold him up to scorn, ridicule, or
contempt, or which is calculated to render him
infamous, odious, or ridiculous.” Id. (quoting Moss v.
Harwood, 102 Va. 386, 392 (1904)); see Adams v.
Lawson, 58 Va. (17 Gratt.) 250, 255—56 (1867); Moseley
v. Moss, 47 Va. (6 Gratt.) 534, 538 (1850)”.
For the last past years; Petitioner has been “POKED” “SET
UP” “PROVOKED” several times ...with the intent to make
her fail... and to justify for the DISGUSTING defamatory
labels UCLA et.al. have fabricated about her ... further, they
are signs “people” are SPYING on her, VIDEOTTAPING
her and... “SNEAKING” from her

7

personal phone, computer, etc.: personal information,
intimate videos, photos, etc. to fabricate, to alter, to mislead
her “character”.
ANY Evidence obtained Illegally is not admissible in
court. ANY Fabricated evidence created in “BAD FAITH”
solely with the intent to mislead the character of a person
to alter the outcome of a legal proceeding is a FELONY.
California Penal Code 132 & 134.
“It is a felony to present false written
evidence in any legal proceeding... 134 a
crime to prepare any false evidence with
the intent to use it in a legal proceeding
(even if, for whatever reason, the false evidence never
actually gets presented in court"
II.

NEW CASE: HOUSE OF REPRESENTATIVE
DENIED PRESIDENT TRUMP “DUE PROCESS”.

Recent case that refers to violation of “Due Process” is the
Impeachment of the President, Donald Trump by the House of
Representative. On December 9, 2019 U.S. House of
Representatives impeached President Donald Trump on two
charges: Abuse of Power and Obstruction of Congress

8

judiciary proceedings. According to Senate Judiciary
Chairman Lindsey Graham, R-S.C, claim that President
Trump has been denied “due process”. Further, he states:
“One of the cornerstones of American jurisprudence is due
process - the right to confront your accuser, call witnesses on
your behalf, and challenge the accusations against you.
None of this is occurring in the House. Lindsey Graham.
October 24, 2019. According to Ilya Somin, a law professor at
George Mason University, said due process rights are
protected in "situations where an individual stands to lose her
‘life, liberty, or property,’ none of which is at risk here."
Similar to Petitioner’s case were lower courts denied
petitioner the right to confront UCLA et. al; call her own
witnesses to disprove UCLA et. al. disgusting accusations and
challenge UCLA et. al. to any accusation against her.
Petitioner’s legal case was not fair; but deplorable...
Petitioner is not an attorney; she was doing the best that

9
she could and all the time she was complying with the judges’
orders. Petitioner believe her case was not taking seriously
because she was appearing as a Pro Se and in forma pauperi
and because of that the Court of Appeals; the Southern and
Central District Court (1) Abuse their power; (2) Obstructed
Justice and (3) Acted in Bad Faith disregarding completely of
the serious accusations UCLA et. al. was making against
petitioner and her medical conditions.
III. COURT OF APPEALS: THE SOUTHERN
DISTRICT COURT AND THE CENTRAL
DISTRICT COURT.
(1)

ABUSE OF POWER

Court of Appeals abused its power when omitted to review the
Southern District court and the Central District courts’
violations of petitioner’s due process. The Southern and
Central District courts abused their power when did not allow
petitioner to commence her civil right case; creating

10
mental stress, anxiety in petitioner and exacerbating her
medical conditions.
(2)

OBSTRUCTION OF JUSTICE

The Southern District court and the Central District courts
obstructed justice by not issuing the summons; ordering
petitioner not to serve the complaint to the defendants and
not to include any exhibits in her pleadings. Court of Appeals
obstructed justice by not correcting the Southern and Central
District courts’ errors . Leaving petitioner helpless and
vulnerable for more diabolic attacks.
(3)

ACTED IN BAD FAITH.

Central district acted in bad faith when rule in favor of the
defendants; against petitioner; concluded petitioner’s case is
frivolous; when the court did not have jurisdiction over
the defendants; but made petitioner believe she had a case.
Court of Appeals acted in bad faith when affirmed the Central
District court rulings; where there was no case.
IV.

“UNLIKEABLE” LITIGANT

11
Petitioner is an “Unlikeable” litigant; because of her claims
and her strong desire to present the truth and clear her name
in court. Because of that; Petitioner has experiencing strong
retaliation/opposition among other disgusting violations
against her persona.
“Likeability” should not be a “criteria” for denying a
woman access to the legal system. Furthermore, should not be
a pretext to Crucify and Destroy the life of an Innocent
woman is just morally wrong...
V.

CONCLUSION
For the reasons stated above, Petitioner respectfully

requests that the Court Grant its petition for rehearing,
allow her submit her Supplement Brief properly and treat the
Rehearing meeting as a Conference meeting.
Dated: January 1, 2019
Respectfully submitted,
Marilu Touma
Petitioner
4439 Murietta Avenue #20
Sherman Oaks, CA 91423
mtoumre2017@aol.com

CERTIFICATE OF COUNSEL
I hereby certify that this petition for rehearing is presented in
good faith and not for delay.

/Marilu/1^. Touma
Pro Se

